  National Railroad Passenger Corporation
        Office of Inspector General




        Report # 42                                                                          April 1, 2010 –
Semiannual Report to Congress
                          Amtrak Office of Inspector General   I                         September
                                                                   Semiannual Report to Congress I April 1 –30,   2010
                                                                                                            Sept. 30, 2010   1
                    Vision
                    The Office of Inspector General (OIG) strives to provide Amtrak’s
                    employees, its customers, the public, and the Congress with the
                    highest quality service and programs through vigilance, timely
                    action, accuracy, and an overall commitment to excellence across
                    the broad range of OIG responsibilities.




                    Mission
                    The OIG conducts and supervises independent and objective
                    audits, inspections, evaluations, and investigations relating
                    to Amtrak programs and operations; promotes economy,
                    effectiveness, and efficiency within the company; prevents and
                    detects fraud, waste, and abuse in company programs and
                    operations; reviews security and safety policies and programs,
                    and reviews and makes recommendations regarding existing and
                    proposed legislation and regulations relating to Amtrak’s programs
                    and operations.




2   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
Table of Contents


From the Inspector General 	                                                                  3

OIG Profile 	                                                                                 9

Amtrak Profile	                                                                             14

Significant Activities: Actions Underway to Strengthen OIG Operations 	 17

Significant Activities: Audits 	                                                            23

Significant Activities: Inspections and Evaluations	                                        28

Significant Activities: Investigations 	                                                    31

Significant Activities: Testimony and Legislative Update	                                   35

Performance Measures	                                                                       37

Appendixes 	                                                                                39

Reporting Requirements 	                                                                    46




                  Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   1
                            Washington, DC




2   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                               From the Inspector General




                 National Railroad Passenger Corporation
                       Office of Inspector General




I am pleased to present the Amtrak Office of Inspector General (OIG)
Semiannual Report to Congress for the six months ending September 30, 2010.
In addition to describing significant OIG accomplishments during this period,
this report highlights ongoing actions to strengthen OIG operations and make
progress toward our goal of becoming a model OIG.

The Amtrak OIG is uniquely situated to oversee Amtrak operations. Our staff
combines personnel with many years of experience in the railroad industry
with those steeped in a background of auditing and investigative work
according to professional standards. Together, this has resulted in a team that
can knowledgeably assess Amtrak operations and offer recommendations for
improvement, based not only on a thorough understanding of the company
but also on experience with countless similar entities.

We continue to build our capacity to conduct effective independent oversight
and to improve relationships among OIG, AMTRAK management, Congress,
and other stakeholders. We likewise continue to enhance both the quality
and quantity of our audits, evaluations, and investigations: at least eight
major audits are in progress that focus on information technology, financial
reporting, procurement, vendor payments, projects funded by the American
Recovery and Reinvestment Act (ARRA), and projects associated with the
Americans with Disabilities Act.



Significant Accomplishments

As stewards of public funds, the OIG seeks to ensure that monies spent are
spent wisely, with appropriate value received. During this reporting period, our
audit and evaluation units produced testimony before Congress and issued
three reports that identified $1.3 million in financial benefits. Our investigative




              10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                            3
    From the Inspector General



              work resulted in securing convictions and court-ordered fines and restitution
              in theft schemes involving health care and credit card fraud, totaling over
              $800,000. We also secured over $65,000 in administrative recoveries for the
              company.

              We continued to identify opportunities to reduce costs, improve management
              operations, and institute more efficient and effective business processes. For
              example:

              •	 In April 2010, I testified before the Senate Committee on Appropriations,
                 Subcommittee on Transportation, Housing and Urban Development, and
                 Related Agencies, to discuss Amtrak’s Fiscal Year 2011 budget request. My
                 testimony focused on opportunities Amtrak has to provide increased levels
                 of high-quality passenger rail services, as well as important challenges
                 it must address to take advantage of these opportunities. The 2008 Pas-
                 senger Rail Investment and Improvement Act included several provisions
                 aimed at encouraging Amtrak to operate more efficiently and provided
                 flexibility to the states in determining who will plan, develop, and operate
                 new services. While Amtrak has many advantages that should help it pros-
                 per in a new, competitive environment, it faces four inter-related manage-
                 ment challenges:

                 1.	   Successfully competing for new, state-supported corridor and high-		
                 	     speed rail services and then delivering high-quality, cost-effective
                 	     service.
                 2.	   Improving human capital management practices, including strategic 		
                 	     workforce planning, along with training and development.
                 3.	   Managing risks associated with the modernization of Amtrak’s
                 	     information technology systems and infrastructure.
                 4.	   Managing risks associated with projects funded through the American 		
                 	     Recovery and Reinvestment Act (ARRA).

              •	 Our May 2010 audit of project risks associated with nine key engineering
                 projects funded by ARRA and valued at $277 million identified risk areas
                 across projects. The report identified several risks, and determined that
                 Amtrak management was taking steps to mitigate them.

                 However, Amtrak managers and executives were not in a position to
                 mitigate the most significant risk, the grant requirement that Amtrak take
                 “extraordinary measures” to ensure that projects would be completed
                 by the February 2011 ARRA deadline. This requirement may have the




                             10 G Street, NE, Suite 3W-300, Washington, DC 20002
4
                                                             From the Inspector General



   unintended consequence of encouraging Amtrak to take actions that
   increase the risk of waste and inefficiency or even to take shortcuts that
   could increase the risk that the project will not perform as well as expected
   and will not provide the benefits expected.

   Because the grant agreement, rather than law, is driving these
   extraordinary measures, we recommended that Amtrak apply to the
   Federal Railroad Administration (FRA) to amend the grant provisions.
   These provisions should ensure a balance between spending taxpayer
   funds in a timely manner and achieving project objectives—without actions
   that could increase the potential for waste or inefficiency.

   We further recommended that Amtrak apply to FRA for a grant waiver in
   instances in which reasonable measures have failed to bring the project
   within the grant deadline. Management agreed with the report’s findings
   and concurred with all of our recommendations. In August the grant
   agreement waiver provision was amended. Amtrak must now identify the
   measures it has undertaken to complete the project by the February 17,
   2011, date, and is not required to take extraordinary measures.

•	 Our July 2010 evaluation of Amtrak’s strategic planning found that while
   the establishment of an executive leadership team to “create the future
   service and organizational vision for the company” is a significant move
   forward, it does not incorporate the key elements of a strategic planning
   process and does not explicitly call for the development of a strategic plan.
   Developing a strategic plan could assist Amtrak’s leadership in effectively
   aligning organizational efforts around a single vision and ensuring the ef-
   fective use of resources.

   We recommended that Amtrak develop a strategic plan utilizing a strate-
   gic planning process that incorporates the key elements of effective strate-
   gic planning. Amtrak management agreed, and committed to preparing a
   timeline for the development of a strategic plan by October 19, 2010.

•	 Our September 2010 audit of the monthly on-time performance bills and
   schedules for our 7-month audit period disclosed that Burlington Northern
   Santa Fe Railway Company (BNSF) inaccurately billed Amtrak, resulting in
   over $1 million in questioned costs. This resulted from BNSF’s not comply-
   ing with provisions of the operating agreement and routinely submitting
   inaccurate billings. We also found that Amtrak did not perform a complete,
   through review to verify the on-time performance incentives billed by




             10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                          5
    From the Inspector General




                 BNSF prior to approving them for payment. Finally, management autho-
                 rized relief requests and paid BNSF almost $240,000 for on-time perfor-
                 mance claims that were not covered by the operating agreement. These
                 funds could have been put to better use by Amtrak to help meet its goals
                 and reduce operating expenses and federal subsidies.

                 We recommended that Amtrak recover the $1,055,662 from BNSF and de-
                 velop and implement a criterion-based process for consistently reviewing
                 and approving relief requests. Amtrak agreed with our findings and recom-
                 mendations and provided an action plan with milestone dates.


              Significant Actions Taken to Strengthen OIG Operations

              A critical element for ensuring that the OIG can effectively perform the
              independent role mandated by the Inspector General Act of 1978 is a
              professional and effective working relationship between the OIG and Amtrak
              management. Amtrak management and the OIG made significant progress
              in overcoming these relationship issues by developing a new relationship
              policy that fully meets the letter and spirit of the IG Act, withdrawing the OIG
              from performing management functions, and rebuilding relationships among
              Amtrak and OIG managers and staff.

              Further, during this reporting period, the OIG has either completed or initiated
              several actions to strengthen our operations and ensure that we operate
              efficiently and effectively.

              First, I selected David Warren as the Assistant Inspector General for Audits.
              Mr. Warren spent 30 years with the Government Accountability Office and
              has extensive experience in leading performance and financial audits. Most
              recently he served as the Assistant Inspector General for Audits with the
              Special Inspector General for Iraq Reconstruction

              Second, to help us advance our strategic goal of becoming a model OIG, we
              engaged the National Academy of Public Administration (NAPA) to conduct
              an organizational assessment of the Amtrak OIG. NAPA issued its report in
              August 2010 and made 41 recommendations that focused on eight areas in
              which we can enhance our operations.




                           10 G Street, NE, Suite 3W-300, Washington, DC 20002
6
                                                            From the Inspector General



We are currently developing an implementation plan to address NAPA’s
recommendations in each of these areas. We have engaged NAPA to assist
us in the process of developing implementation plans for the four areas
with the highest levels of priority and urgency—internal communication,
work planning and prioritization, quality and timely work processes, and
performance measures.

Third, it is the policy of the Amtrak OIG that our audit work will comply with
the 2007 revision of generally accepted government auditing standards. To
that end, we have developed a comprehensive audit and evaluation manual.
We are currently providing our auditors and evaluators with three days of
familiarization training on these new policies and procedures.

I look forward to working with the Chairman, Board members, President, and
executives at Amtrak, and the House and Senate authorization, oversight, and
appropriations committees in the months ahead to meet the challenges facing
Amtrak and the OIG.




Theodore (Ted) Alves
Inspector General




             10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                         7
                                                                                                    Union Station, Washington, DC
                                                                                                                                    Photo: Max Hirshfeld/MaxPix




8   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                                                  OIG Profile




OIG Profile
Vision, Mission, and Authority
Vision
The Office of Inspector General (OIG) strives to provide Amtrak’s employees,
its customers, the public, and the Congress with the highest quality service and
programs through vigilance, timely action, accuracy, and an overall commitment
to excellence across the broad range of OIG responsibilities.

Mission
The OIG will conduct and supervise independent and objective audits,
inspections, evaluations, and investigations relating to Amtrak’s programs and
operations; promote economy, effectiveness, and efficiency within Amtrak;
prevent and detect fraud, waste, and abuse in Amtrak’s programs and operations;
review security and safety policies and programs; and review and make
recommendations regarding existing and proposed legislation and regulations
relating to Amtrak’s programs and operations.

Authority
The Inspector General Act of 1978 (Public Law 95-452, 5 U.S.C. Appendix 3), as
amended in1988 (P.L. 100-504), established the Office of Inspector General for
Amtrak to consolidate existing investigative and audit resources into independent
organizations headed by an Inspector General (IG) to promote economy,
efficiency, and effectiveness; and detect and prevent fraud, waste, and abuse.
Subsequently, the Inspector General Reform Act of 2008 (P. L. 110-409) amended
and strengthened the authority of the Offices of Inspectors General.




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   9
OIG Profile




                                  Guiding Principles and Values
                                  OIG principles and values are important because they form the building blocks
                                  used to accomplish its mission and conduct its day-to-day operations:


                                                                High Quality,
                                                                 Relevance,
                                                                 Timelness




                                                   Innovation               Respecting and
                                                                           Developing People




                                                                Independence             Customer Service
                                     Professionalism            and Objectivity




                                  Amtrak’s Office of Inspector General will:
                                  •	 High Quality, Relevance, Timeliness—Provide valuable and timely service.
                                     Work products are high quality, relevant, timely, add value, and are responsive
                                     to the needs of Amtrak, and its stakeholders.
                                  •	 Independence and Objectivity—Be committed to carrying out its mission
                                     with objectivity and independence, both in appearance and fact. Conflicts,
                                     improper influence, or other impediments do not interfere with our work.
                                  •	 Customer Service—Strive to be aware of the needs of stakeholders and
                                     work with Amtrak’s chairman, the Board of Directors, and the Congress to
                                     improve program management.
                                  •	 Innovation—Be innovative, question existing procedures, and suggest
                                     improvements. New ideas and creativity are fundamental to continued
                                     growth, development, and problem solving.
                                  •	 Respecting and Developing People—Create an environment that supports
                                     gathering, sharing, and retaining knowledge; fosters treating everyone fairly
                                     and with mutual respect through words and actions; ensures professional
                                     growth; and values the diverse backgrounds, skills, and perspectives of
                                     employees.
                                  •	 Professionalism—Be committed to our professional standards and foster
                                     relationships with stakeholders that rely on communication and cooperation.
                                     Relationships with program managers are based on a shared commitment to
                                     improving program operations and effectiveness.


10   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                                                                OIG Profile




Office of Inspector General Organization

                                             Theodore (Ted) Alves
                                                      Inspector
                                                       General



                                               Thomas J. Howard
                                                       Deputy
                                                  Inspector General




        David R. Warren                          Calvin E. Evans                       Adrienne R. Rish
     Assistant Inspector General              Assistant Inspector General           Assistant Inspector General
                Audits                       Inspections and Evaluations                   Investigations




                          Colin C. Carriere                           E. Bret Coulson
                                   General                        Assistant Inspector General
                                   Counsel                         Management and Policy



The OIG headquarters is based in Washington, D.C., with seven field offices
located in Baltimore, Boston, Chicago, Los Angeles, New York, Philadelphia, and
Wilmington, Delaware.

The Inspector General provides policy direction and leadership for Amtrak’s
Office of Inspector General and serves as an independent voice to the Board of
Directors and Congress by identifying opportunities and promoting solutions for
improving the company’s performance. The Deputy Inspector General assists the
Inspector General in development and implementation of the OIG’s diverse audit,
investigative, legal, and support operations.




                                              Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   11
OIG Profile




                                  Audits
                                  The Office of Audits conducts independent and objective audits and reviews of
                                  Amtrak’s programs and recommends improvements to better safeguard its assets
                                  and to improve programs and operations, including contractor activities.

                                  Inspections and Evaluations
                                  The Office of Inspections and Evaluations conducts evaluations of Amtrak
                                  programs and operations to identify opportunities to improve cost efficiency and
                                  effectiveness, and the overall quality of service delivery throughout Amtrak.

                                  Investigations
                                  The Office of Investigations investigates allegations of fraud, waste, abuse,
                                  and misconduct that could affect Amtrak’s programs, operations, assets, and
                                  other resources. Investigative findings are referred to the Department of Justice
                                  for criminal prosecution or civil litigation, or to Amtrak management for
                                  administrative action. The office develops recommendations to reduce Amtrak’s
                                  vulnerability to criminal activity.

                                  General Counsel
                                  The General Counsel is responsible for providing legal assistance and advice to
                                  OIG senior management and supports audits, evaluations, special reviews, and
                                  investigations. Counsel coordinates with outside attorneys, including local and




                                                            Empire Builder at Columbia River Gorge, Oregon




12   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                                                        OIG Profile




Empire Builder at Glacier National Park, Montana


federal agencies and law enforcement attorneys, and appears in court on behalf
of the OIG and its employees.

Management and Policy
The Office of Management and Policy provides financial management,
procurement, human capital management, administrative, information
technology, and communications expertise to the OIG.


                                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   13
OIG Profile




                                  Amtrak Profile
                                  The National Railroad Passenger Corporation—Amtrak—is incorporated
                                  under the District of Columbia Business Corporation Act (D.C. Code § 29-301
                                  et seq.) in accordance with the provisions of the Rail Passenger Service Act of
                                  1970 (P. L. 91-518). Under the provisions of the Passenger Rail Investment and
                                  Improvement Act of 2008 (P. L. 110-432; 49 U.S.C. § 24302), Amtrak’s Board of
                                  Directors was reorganized and expanded to nine members.
                                  The company is operated and managed as a for-profit corporation providing
                                  intercity rail passenger transportation as its principal business. Congress created
                                  Amtrak in 1970 to take over, and independently operate, the nation’s intercity
                                  rail passenger services. Prior to this, America’s private freight companies ran
                                  passenger rail as required by federal law. Those companies reported that they
During fiscal year (FY)           had operated their passenger rail services without profit for a decade or more.
2010, Amtrak set a                With this in mind, when Amtrak began service on May 1, 1971, more than half of
new ridership record,             the rail passenger routes then operated by the freight railroad companies were
                                  eliminated.
carrying 28,716,857
passengers on up
to 305 daily intercity            Ridership Is Up
trains—at speeds of up
to 150 mph (241 kph)—             During fiscal year (FY) 2010, Amtrak set a new ridership record, carrying
on more than 21,100               28,716,857 passengers on up to 305 daily intercity trains—at speeds of up to
route miles serving               150 mph (241 kph)—on more than 21,100 route miles serving 513 communities
                                  in 46 states, the District of Columbia, and three Canadian provinces. More
513 communities in
                                  than 900,000 people also commute every weekday on Amtrak infrastructure or
46 states, the District
                                  on Amtrak-operated commuter trains around the country under contracts with
of Columbia, and three            15 states and four regional commuter authorities. Amtrak employs over 20,000
Canadian provinces.               persons, of whom more than 16,000 are covered by labor agreements. These
                                  employees work in on-board services, maintenance of way, police, station and
                                  reservations services, and other support areas.

                                  Amtrak collected a record $1.74 billion in ticket revenue. When revenues from
                                  other sources such as real estate contracts and services for other railroads are
                                  included, Amtrak covered 84 percent of its operating costs in FY 2010.
                                  In terms of market share, Amtrak now enjoys 69 percent of the combined airline-
                                  intercity rail market between Washington, D.C., and New York City. The market
                                  share of the New York–Boston corridor increased from 50 percent in FY 2009 to
                                  52 percent in FY 2010.




14   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                                                   OIG Profile




How It Works: Ownership and Contracting

Amtrak owns the right-of-way of more than 363 route miles in the Northeast
Corridor (NEC, which includes Washington, D.C.–New York City–Boston;
Philadelphia–Harrisburg; and New Haven, Conn.–Springfield, Mass.), as well as 97
miles in Michigan. Amtrak owns 105 station facilities, and is responsible for the
upkeep and maintenance of an additional 181 station facilities and 411 platforms.
Amtrak owns 17 tunnels and 1,186 bridges.

Amtrak owns most of the maintenance and repair facilities for its fleet of
about 2,600 cars and locomotives. Outside of the NEC, Amtrak contracts with
freight railroads for the right to operate over their tracks. The host railroads
are responsible for the condition of their tracks and for the coordination of all
railroad traffic.




Texas Eagle at Dallas

                                 Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   15
page header




                                                                                                     Mystic, Connecticut




16   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                        Significant Activities | Actions Underway to Strengthen OIG Operations




Significant Activities:
Actions Underway to Strengthen OIG Operations

During this period we have continued to make significant progress in meeting

our strategic priorities to promote positive change, maximize efficiency and

value in our work, and lead by example in creating a model OIG organization.

To help us achieve these goals, we engaged the National Academy of

Public Administration (NAPA) to conduct an organizational assessment.

This assessment was intended to help us identify our core organizational

strengths and weaknesses, then develop specific, prioritized actions to

improve OIG processes, policies, and management practices.


We also made significant progress in strengthening our audit and evaluation
policies and providing appropriate training and development opportunities for
OIG staff.


NAPA’s Organizational Assessment of the OIG

On August 31, 2010, NAPA reported the results of its assessment. The report
included 41 recommendations addressing opportunities to improve in the
following eight areas:

•	   Internal Communications
•	   External Communications
•	   Work Planning and Prioritization
•	   Quality and Timely Work Processes
•	   Independence
•	   Policy Management and Updates
•	   Human Capital Management
•	   Performance Measures




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   17
Significant Activities | Actions Underway to Strengthen OIG Operations




                                  OIG senior leadership concurred with the immediate and longer-term
                                  recommendations in each area. We are currently assessing the actions needed to
                                  implement the recommendations and have set a goal to develop implementation
                                  plans for each area by the next semiannual reporting period. The plans will
                                  identify the desired outcomes, outputs, activities, resources, and milestones for
                                  enhancing our operations in each area.

                                  Developing effective implementation plans will require a collaborative effort
                                  by all OIG employees. The senior leadership team will form teams consisting of
                                  employees from across the OIG to develop the plans. Given the importance of our
                                  efforts, we have again engaged NAPA to help the teams develop implementation
                                  plans for the four areas with the highest levels of priority.

                                  •	 Internal Communications. NAPA found that, historically, Amtrak OIG
                                     culture inhibited information sharing and that limited communication among
 Developing effective                units fed an atmosphere of rumor, suspicion, and frustration. Field offices
 implementation                      were not well integrated into the operations and have only limited communi-
 plans will require a                cation or interaction with headquarters employees. As a first step to help ad-
                                     dress this issue, the OIG initiated semiannual all-hands meetings for October
 collaborative effort by
                                     2010.
 all OIG employees.
                                  •	 Work Planning and Prioritization. The report noted that the OIG had
                                     not centrally prioritized or coordinated its work to ensure alignment with
                                     the OIG’s strategic direction and to provide maximum value and impact to
                                     Amtrak. While the OIG developed a strategic plan in early 2010, it still needs
                                     a process to objectively identify and prioritize Amtrak programs as potential
                                     subjects of audit, investigation, inspection, or evaluation.

                                  •	 Quality and Timely Work Processes. Assessment data indicated that the
                                     lack of documented and well-understood processes, tools, and deadlines
                                     resulted in misaligned resources, inconsistent reporting formats, and inad-
                                     equate accountability. The report also identified a strong desire among OIG
                                     staff for processes and structure, and noted that actions were underway to
                                     develop policy and process guidance and to provide training.

                                  •	 Performance Measures. The report cited the importance of measuring
                                     performance at both the organizational and individual levels. The OIG leader-
                                     ship team recognizes the importance of establishing performance metrics that
                                     reflect the value of their work.




18   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                             Significant Activities | Actions Underway to Strengthen OIG Operations




Relationship between Amtrak and the OIG
As detailed in our last Semiannual Report, a new relationship policy was
formalized on March 4, 2010, between Amtrak management and the Amtrak
OIG. In accordance with the Fiscal Year 2010 Consolidated Appropriations Act
(P. L. 111-117), Farm Credit Administration Inspector General Carl Clinefelter
reviewed whether this relationship policy was consistent with the letter and
spirit of the IG Act of 1978, as amended. He concluded that it was, enabling
Amtrak and the OIG to build a constructive relationship, and further stated
that Amtrak would benefit from “a properly functioning OIG that remains
independent of Corporation programmatic activities.”

The Appropriations Act further called for another member of the Council of
Inspectors General for Integrity and Efficiency to—one year after the initial
determination—evaluate the Amtrak OIG’s operational independence. We will
report on this evaluation in the next Semiannual Report.




Acela Express at Elizabeth, New Jersey


Ongoing Actions

In September 2009 the Legal Services Corporation’s OIG conducted a peer review
of the Amtrak OIG’s system of quality control for the audit function, and made
several recommendations. To respond to these, we have completed a number of
significant actions; more are underway.


                                         Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   19
Significant Activities | Actions Underway to Strengthen OIG Operations




All audit reports must
undergo a thorough




                                                                                                                                  Photo: Paul McGrane
quality control process
for fact checking,
supervisory review, and
independent referencing.                                                                             Springfield, Massachusetts

                                  First, we developed and issued a comprehensive audit and evaluation manual
                                  that conforms to the Government Accountability Office’s (GAO) generally
                                  accepted government auditing standards (GAGAS), July 2007 revision. The
                                  manual addresses the quality control issues raised in the September 2009 audit
                                  peer review and the NAPA report. For example, all audit reports must undergo
                                  a thorough quality control process for fact checking, supervisory review, and
                                  independent referencing. We also provided training to all audit and evaluation
                                  staff on the new requirements.

                                  Second, all audit and evaluation staff attended a training course in performance
                                  auditing. This was a first step in redirecting our audit resources from internal
                                  compliance audits and positioning staff to conduct more value-added
                                  assignments. We developed a training curriculum for auditors and evaluators
                                  that includes training in audit evidence and documentation and courses in report
                                  writing. These courses are scheduled for the next semiannual period.

                                  Third, we developed and published a professional development and training
                                  policy for ensuring that professional employees in the OIG’s Audit and
                                  Inspections & Evaluations offices meet the continuing professional education
                                  (CPE) requirements prescribed in the government auditing standards, 2007
                                  revision, including the requirement to maintain a tracking system for CPE hours.


20   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                             Significant Activities | Actions Underway to Strengthen OIG Operations




Fourth, the OIG is also making progress in improving our investigative
operations. A recent internal quality assessment review by an investigative
consultant disclosed that our system of internal safeguards and management
procedures were not in compliance with the quality standards established by the
Council of Inspectors General on Integrity and Efficiency (CIGIE). The report
highlighted specific deficiencies that required correction before the OIG could
obtain a rating of full compliance in a peer review; completion of such a review is
required for implementing statutory law enforcement authority.

Under the Attorney General Guidelines for Offices of Inspector General
with statutory law enforcement authority, each OIG must certify that every
investigator who will be exercising law enforcement authority has completed the
Criminal Investigator Training Program (CITP) at the Federal Law Enforcement
Training Center (FLETC), or an equivalent program. FLETC is an interagency law
enforcement training organization under the Department of Homeland Security;
it serves more than 80 federal, state, local, and international agencies. Currently,
after each investigator completes the CITP course, the OIG applies for that
investigator’s special deputation from the United States Marshals Service. Six of
our criminal investigators have received this special deputation, which gives the
criminal investigators law enforcement authority to make arrests, execute search
warrants, and carry firearms.

Applications for special deputation are pending for two additional criminal
investigators. After all of the criminal investigators have completed CITP, and
the Office of Investigations has met the other prerequisites established in the
Attorney General guidelines, we will seek statutory law enforcement authority.




Père Marquette at St. Joseph, Michigan

                                         Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   21
                                                                                 The meeting of the two Starlights at Bradley, California




22   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                      Significant Activities | Audits




Significant Activities:
Audits

This reporting period, the Office of Audits continued to conduct a wide range

of independent and objective audits and reviews of Amtrak’s programs to

help Amtrak operate more effectively and to protect the corporation from

fraud, waste, and abuse.


Audits Issued This Reporting Period

This section provides summaries of audits issued during this reporting period.
The full reports can be accessed through the OIG website at www.amtrakoig.gov.

BNSF On-Time Performance Incentives:
Inaccurate Invoices and Lack of Amtrak Management Review
Lead to Overpayments
(Audit Report 407-2003, September 24, 2010)
Questioned Costs:	             $1,055,662
Funds to be Put to Better Use:	 240,000



Burlington Northern Santa Fe Railway Company (BNSF) billed Amtrak over $11
million from October 2001 through April 2002 for on-time performance (OTP)
incentives for operating passenger trains on time more than 80 percent of the
time during a month. Our objectives were to determine whether BNSF complied
with the operating agreement, which provides the basis for performance
payments, and to evaluate the adequacy of Amtrak’s oversight and controls over
monthly OTP invoices.

BNSF has a responsibility to comply with the terms of the operating agreement
by accurately billing and supporting the amount billed for OTP incentive pay-
ments and services. However, we found that Amtrak overpaid BNSF $1,055,662
for OTP incentives because BNSF did not comply with the operating agreement.
Inaccurate claims for tolerances accounted for nearly half of all exceptions
identified; incorrect run times accounted for the remaining exceptions.




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   23
Significant Activities | Audits




                                  Amtrak’s Transportation Operations Management group did not have an OTP
                                  calculation process during the audit period. Instead, management relied on BNSF
                                  employees to calculate the OTP incentives and prepare the bill. Management also
                                  did not perform a complete and thorough review to verify the accuracy of BNSF’s
                                  monthly billings prior to approving them for payment.

                                  We also found that management authorized relief requests and paid BNSF
                                  almost $240,000 for delays that were not covered by the operating agreement.
                                  These funds represent funds that could have been put to better use by Amtrak
Management authorized
                                  to meet its operational needs. Funds lost to relief letters cannot be recovered
relief requests and paid
                                  because Amtrak managers authorized the relief requests. Further, we concluded
BNSF almost $240,000              that continuing to allow overpayments and authorizing relief requests was
for delays that were              undermining Amtrak’s goal of implementing a simplified and automated OTP
not covered by the                billing process.
operating agreement.
                                  We recommended that Amtrak

                                  •	 recover the $1,055,662 it overpaid for OTP incentives;
                                  •	 develop and implement a criterion-based process for consistently reviewing
                                     and approving relief requests; and
                                  •	 develop a simplified and automated OTP billing process.

                                  Management agreed with our findings and generally agreed with our draft
                                  recommendations or their intent, and offered an alternative approach to address
                                  our second recommendation.


                                  American Recovery & Reinvestment Act of 2009:
                                  Assessment of Project Risks Associated with Key Engineering Projects
                                  (Audit Report 912-2010, May 14, 2010)
                                  As part of our obligations under the American Recovery and Reinvestment Act
                                  (ARRA), we assessed the risks associated with nine major ARRA-funded projects
                                  being managed by Amtrak’s Engineering Department and the measures being
                                  taken to deal with those risks. These projects had a budget value totaling $277
                                  million.

                                  A significant number of risk items were either directly or indirectly attributed
                                  to the Federal Railroad Administration grant agreement provision that requires
                                  Amtrak to complete all ARRA-funded projects no later than February 17, 2011.
                                  These included (1) the ability to complete the project before the February 17,




24   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                        Significant Activities | Audits




2011, grant deadline; (2) environmental concerns; and (3) schedule concerns. In
many cases, the project managers were able to identify actions to mitigate risks.
The Amtrak project managers appeared to understand the measures that must
be used to mitigate the associated project risks and had begun to implement the
majority of them. However, Amtrak managers and executives are not in a position
to mitigate the most significant risk, the grant requirement that Amtrak take
“extraordinary measures” in order to justify a request for relief from the project
deadline. This requirement may have the unintended consequence of encouraging
Amtrak to take actions that increase the risk of waste and inefficiency or even
to take shortcuts that could increase the risk that the project will not perform as
well as expected and will not provide the benefits expected.

As a result, as projects faced delays that threatened the completion date, Amtrak
executives had to either cancel the project and identify a substitute that could be
completed in time, or take “extraordinary measures” to meet the completion date.                       We also recommended
Identifying substitute projects at this point also increases risks and might result in                 that Amtrak apply to
funding lower-priority projects that would bring fewer benefits than the originally
                                                                                                       FRA for a grant waiver
selected project.
                                                                                                       in instances in which
Extraordinary measures that have been proposed by Amtrak include the addition                          reasonable measures
of second or even third shifts on construction projects, reducing the scope of                         have failed to bring the
projects to accomplish less than originally planned, and dividing projects into two                    project within the grant
phases, one funded from ARRA funds and the second, post February 17, 2011,                             deadline. In August
using Amtrak general capital funds.                                                                    the grant agreement
                                                                                                       waiver provision was
Because the grant agreement is driving these “extraordinary measures” rather
                                                                                                       amended.
than the law, we recommended that Amtrak apply to FRA to amend the grant
provisions. The grant provisions should ensure a balance between spending
taxpayer funds in a timely manner and achieving project objectives, without
actions that could increase the potential for waste or inefficiency.

We also recommended that Amtrak apply to FRA for a grant waiver in instances
in which reasonable measures have failed to bring the project within the grant
deadline. Management agreed with the report’s findings and concurred with all
of the recommendations. In August the grant agreement waiver provision was
amended.




                                  Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   25
Significant Activities | Audits




                                                                                                     California Zephyr at Thompson, Utah




26   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                      Significant Activities | Audits




Ongoing Audits
During the next six months, the Office of Audits will focus broadly on information
technology, financial reporting, procurement, vendor payments, American
Recovery and Reinvestment Act (ARRA)-funded projects, and Americans with
Disabilities Act projects.

Key audit reports expected to be completed include the following:

•	 An audit of Amtrak’s planning, implementation approach, and program
   management for the Strategic Asset Management (SAM) program. This is
   Amtrak’s most significant information technology program to improve the
   economy, effectiveness, and efficiency of its support and business operations
   and is estimated to have an implementation cost of up to $380 million.
•	 An audit of the adequacy of accounting practices related to financial reporting
   for inventory purchases.
•	 A review of the cost proposal for the $466-million purchase of new locomo-
   tives. The audit results will help Amtrak in its contract negotiations and
   future considerations of proposed contract modifications.
•	 Incurred-cost audits of contracts valued at over $3 million for repair of main-
   tenance facilities and track replacements and improvements. These audits
   will identify questioned and unsupported costs.
•	 Audits of invoices billed to Amtrak for performance payments to other rail-
   roads. These invoices allowed over $60 million in awards payments. Similar
   past audits have identified significant overpayments.
•	 A review of 40 ARRA-funded projects expected to cost about $465 million.
   These projects are being implemented by a contractor on behalf of Amtrak.
   The audit will address the adequacy of Amtrak’s program management over-
   sight and status of project implementation, as well as obstacles to completing
   the projects by the ARRA deadline of February 17, 2011.
•	 An audit of 35 police and security ARRA-funded projects expected to cost $95
   million. The audit will address the adequacy of Amtrak’s program manage-
   ment and the status of project implementation, as well as obstacles to com-
   pleting the projects by the ARRA deadline of February 17, 2011.
•	 A review of Amtrak’s progress in complying with the Americans with Dis-
   abilities Act. The audit will address what has been and remains to be done, as
   well as barriers that must be overcome to achieve further progress.




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   27
Significant Activities | Inspections and Evaluations




                                  Significant Activities:
                                  Inspections and Evaluations

                                  During this reporting period, the Office of Inspections and Evaluations issued

                                  an evaluation of Amtrak’s strategic planning, summarized below.

While the establish-              Amtrak’s Strategic Planning
ment of an executive              (Report E-10-01, August 17, 2010)
leadership team to
                                  In June 2010, Amtrak announced a new initiative, to convene an executive
“create the future
                                  leadership group to “create the future service and organizational vision for
service and organiza-
                                  the company.” Prior to this announcement, OIG had completed an extensive
tional vision for the             review of current models and practices in strategic planning. Based on Amtrak’s
company” is a positive            announcement of this new initiative, we decided to share with management
and important move                our observations of how Amtrak’s current plans and proposed new initiative
forward, the effort did           compared with the industry best practices that we identified. On July 29, 2010,
not incorporate the key           we briefed Amtrak’s senior executive leadership team on our observations and
                                  recommendations.
elements of a strategic
planning process and
                                  In a 2005 report, the Government Accountability Office concluded that “Amtrak
did not explicitly call for       lacks a meaningful strategic plan that provides a clear mission and measurable
the development of a              corporate-wide goals, strategies, and outcomes to guide the organization.” Since
strategic plan.                   that report, Amtrak has struggled to implement an effective strategic planning
                                  process. Although multiple planning efforts were initiated between 2005 and
                                  2009, none resulted in a comprehensive strategic plan. In October 2009, after a
                                  change in Amtrak leadership, the corporation took a significant step forward
                                  in issuing strategic guidance and a 5-year financial plan. Amtrak recognized
                                  that, while important, these documents still did not represent a comprehensive
                                  strategic plan.

                                  We found that Developing a strategic plan could assist Amtrak’s leadership in
                                  effectively aligning organizational efforts around a single vision and ensuring the
                                  effective use of resources. Further, the process helps leaders make choices on
                                  strategic initiatives and determine priorities. From there, it fosters the




28   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                     Significant Activities | Inspections and Evaluations




development of realistic program and project plans, and therefore increases goal
attainment. It also serves as a communications tool for all stakeholders, and
helps facilitate mid-course corrections by focusing on end goals.

We recommended that Amtrak develop a strategic plan utilizing a strategic
planning process that incorporates the key elements of effective strategic
planning. In commenting on a draft of this report, Amtrak management agreed
with this recommendation and committed to preparing a timeline for the
development of a strategic plan by October 19, 2010.


Ongoing Evaluations
Operation RedBlock Follow-up
Operation RedBlock is a labor-developed, management-supported program                               In February 2010, Amtrak
to promote the awareness and education of drug and alcohol use in the                               published a fleet strategy
workplace through union-led volunteer prevention committees. In March 2008
                                                                                                    outlining the need to
we issued a report that identified significant deficiencies in the program and
                                                                                                    spend $23 billion over the
made 14 recommendations to improve Operation RedBlock’s operational and
organizational efficiency and effectiveness. Amtrak disagreed with many of the                      next 30 years to replace
recommendations, and asserted that the program was operating effectively, but                       aging equipment and to
did not provide additional information. Our objective in this follow-up review is                   provide the fleet necessary
to determine the progress made in implementing our previous recommendations.                        to meet projected ridership
                                                                                                    demands.
Amtrak Strategic Fleet Planning
In February 2010, Amtrak published a fleet strategy outlining the need to spend
$23 billion over the next 30 years to replace aging equipment and to provide the
fleet necessary to meet projected ridership demands. In May 2010, we were asked
to conduct a comprehensive review of this strategy by the Ranking Member of
the Senate Committee on Appropriations, Subcommittee on Transportation,
Housing and Urban Development, and Related Agencies. Our specific objective is
to assess whether the critical data and assumptions having a material impact on
the plan’s equipment and financial resource are reasonable and valid.

Mechanical Maintenance Operations Follow-up
In our September 2005 report, we made 34 recommendations to improve the
effectiveness and efficiency of Amtrak’s mechanical maintenance program.
One of our major recommendations was that Amtrak adopt a more modern
maintenance philosophy based on reliability-centered maintenance. Our objective
in this follow-up is to evaluate the progress that has been made since 2005 and
identify continued opportunities to improve the efficiency and effectiveness of
Amtrak’s mechanical maintenance operations.


                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   29
                                                                                        Acela Express at Hellgate Bridge, New York City




30   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                            Significant Activities | Investigations




Significant Activities:
Investigations

During this reporting period, the Office of Investigations continued to work

on a variety of cases of alleged fraud, waste, and abuse of Amtrak funds

and resources. Investigators opened 22 new cases and closed 133, and our

hotline received 151 contacts by email, fax, letter, website, or telephone.

Our work resulted in four convictions, one indictment, the removal of one

employee, and the suspension of two others.
                                                                                                       The cardiologist used
The office began this semiannual reporting period with an inventory of over 300
                                                                                                       the proceeds to live
cases, many of which had sat dormant for years without investigative activity or
                                                                                                       a lavish lifestyle,
supervisory review. Most addressed administrative matters more appropriately
handled by Amtrak management. Other open cases were resolved but awaiting                              purchasing a suburban
full payment of court-ordered restitution. As a result of improved supervision and                     mansion, property in
case management, we are progressing in closing out the dormant cases so that                           Arizona, luxury automo-
we may fully focus our attention on matters having a greater impact on Amtrak’s                        biles, and investing in
programs and operations.                                                                               various venture capital
                                                                                                       opportunities.
Cardiologist Sentenced for Health Care Fraud
(Report 08-096, August 11, 2010)
Restitution of $575,922 ordered
A cardiologist provided false information and billed Medicare and other insurers
$13 million for medical services that were never rendered to patients. The
cardiologist used the proceeds to live a lavish lifestyle, purchasing a suburban
mansion, property in Arizona, luxury automobiles, and investing in various
venture capital opportunities.

The physician carried out this scheme by using his hospital privileges to access
and obtain information about patients without their knowledge or consent.

The cardiologist hired individuals to bill Medicare and other insurance providers
for medical services that he purportedly rendered to patients whom he never



                                 Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   31
Significant Activities | Investigations




                                  treated. He submitted more than 14,800 false claims for reimbursement for
                                  providing the highest level of cardiac care in an intensive care unit on multiple
                                  days during patients’ hospital stays.

                                  Of the $13 million falsely billed, the cardiologist billed Amtrak $591,285 for
                                  critical cardiac care services that were not rendered. The investigation was
                                  conducted by a multi-agency task force that included the FBI and numerous
                                  Offices of Inspectors General. In August of 2010, the cardiologist was sentenced
                                  to five years in federal prison and was ordered to pay restitution totaling
                                  approximately $13 million to Medicare and other public and private health care
                                  insurance programs. Amtrak’s share of the restitution was $575,922.


                                  Amtrak Employee and Contractor Convicted of Theft
                                  (Reports 08-003 and 09-006, August 17, 2010)
                                  Restitution of $223,451 ordered
                                  OIG received information concerning the possible theft of credit card funds from
                                  the Amtrak Manual Credit Card System (MCCS). An investigation discovered that
                                  an Amtrak employee, who worked with the MCCS account, had credited nearly
                                  $151,000 to his personal credit card account. The individual pled guilty in U.S.
                                  District Court to a felony charge of theft from a program receiving federal funds.
                                  In April 2010, the employee was sentenced to three years’ probation, 90 days’
                                  home confinement, 250 hours of community service, and was ordered to pay
                                  restitution to Amtrak of $150,964.

                                  The source who reported the theft also provided information that an Amtrak
                                  contractor received more than $72,000 worth of Amtrak credits to his personal
                                  credit cards. The contractor pled guilty to receiving stolen property and on June
                                  24, 2010, was sentenced to five years’ probation, a fine of $3,000, and ordered to
                                  pay restitution of $72,487.

                                  As a result of these cases, Amtrak’s Finance Department developed procedures
                                  designed to prevent future manipulation of the MCCS account by employees and
                                  provide improved oversight of system use.

                                  Passenger Used Inactive Credit Card to Purchase Tickets
                                  (Report 08-148, August 17, 2010)
                                  Restitution of $2,565 ordered
                                  OIG received information that an Amtrak passenger was using an inactive credit
                                  card to purchase tickets over an 18 month period, resulting in lost revenue to
                                  Amtrak of $2,565. Agents found that the passenger had used the credit card



32   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                              Significant Activities | Investigations




33 times to purchase Amtrak tickets from conductors on board the train. The
passenger pled guilty to theft and in July 2010 was ordered to pay restitution in
the amount of $2,565 to Amtrak.


Theft from Minneapolis/St. Paul Ticket Office
(Report 10-128, August 17, 2010)
OIG received information that an Amtrak ticket agent may have stolen cash from
the Minneapolis/St. Paul ticket office. Agents substantiated the allegation, and
the ticket agent admitted stealing $30,050 from Amtrak and resigned from his
position. The ticket agent died prior to charges being filed.

Amtrak Employee Suspended for Claiming Time Not Worked
(Report 09-036, August 17, 2010)
OIG received information that a Southampton (Mass.) maintenance facility
employee was being paid for overtime not worked. Through a review of company
records and interviews, we determined that on nine occasions when the
employee claimed to be at work at the facility, the employee was elsewhere in
the Boston area. At an administrative hearing in August 2010, the employee was
found to have violated the Trust and Honesty section of Amtrak’s Standards of
Excellence and was assessed a 15-day suspension, return of the company-issued
laptop and cellular telephone, and removal from special assignment.

Tuition Assistance Wrongfully Obtained
(Report 10-073, August 17, 2010)
Reimbursement to Amtrak of $1,976
OIG received information that an Amtrak station clerk received tuition assistance
from Amtrak to attend college while on a medical leave of absence. The station
clerk graduated from the University of Texas at El Paso with a degree in
engineering and gained employment with a defense contractor in Phoenix while
on medical leave from Amtrak.

Amtrak policy dictates that an employee must be in an “active employment
status” at the beginning and throughout the course of study to be eligible to
receive tuition reimbursement. We determined that the station clerk had received
$2,482 in tuition reimbursement while on medical leave. Management charged the
station clerk with abandoning his position. The station clerk resigned his position
with Amtrak in August 2010, and forfeited $1,976 of vacation pay, which was due
upon his resignation.




                                   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   33
Significant Activities | Investigations




                                  Amtrak Employee Charged With Theft
                                  (Report 09-002, August 23, 2010)
                                  Employee Arrested and Indicted
                                  A track inspector used Amtrak’s GSA credit card to purchase fuel for his personal
                                  vehicle on multiple occasions. The fuel purchased was valued at a minimum of
                                  $2,000. The track inspector was indicted by a Maryland grand jury for theft and
                                  was arrested on August 20, 2010. The track inspector was suspended from service
                                  pending an administrative hearing. He eventually pled guilty.



                                  Revenue Protection Unit
                                  During this reporting period, in conjunction with random on-board train
                                  observations of lead service attendants (LSAs), the Office of Investigations’
                                  Revenue Protection Unit (RPU) analyzed supporting documentation for on-board
                                  food and beverage sales for 69 trains. The reviews resulted in 11 administrative
The Office of Investi-            referrals to management consisting of various issues including theft, fraud, and
gations developed a               failure to follow procedures. By the end of this reporting period, discipline had
fraud awareness train-            been assessed against seven LSAs, ranging from counseling to termination.
ing program that will
be made available to              In an effort to inform Amtrak personnel of the mission of the RPU and the
                                  importance of adhering to internal controls to prevent losses of revenue from
Amtrak employees and
                                  on-board food and beverage sales, RPU gave eight presentations to a total of 89
contractors throughout
                                  newly hired or promoted assistant conductors.
the corporation.


                                  Fraud Awareness Training
                                  The Office of Investigations developed a fraud awareness training program
                                  that will be made available to Amtrak employees and contractors throughout
                                  the corporation. Tips from individuals who recognize indications of fraudulent
                                  activity are some of the best sources available to fraud investigators. This is a
                                  proactive effort to educate the workforce on the mission and role of the OIG and
                                  provide information about fraud and examples of fraud indicators. This training
                                  will provide valuable information to help employees and contractors detect fraud
                                  in contracts, recognize fraudulent schemes in projects and procurements, and
                                  spot indicators of financial fraud.




34   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                              Significant Activities | Testimony and Legislative Issues




Significant Activities:
Testimony and Legislative Issues

Inspector General Testimony
April 29, 2010


Inspector General Ted Alves testified before the Subcommittee on

Transportation, Housing and Urban Development, and Related Agencies,

Senate Committee on Appropriations, regarding Amtrak’s fiscal year 2011

operating and capital budget request. The IG discussed significant challenges

Amtrak faces in providing increased levels of high-quality passenger rail

services, and the challenges it must address to take advantage of these

opportunities.

The IG noted that the Passenger Rail Investment and Improvement Act (PRIIA)
not only reauthorized Amtrak, but fundamentally changed Amtrak’s role within
the national passenger rail system. PRIIA contains many provisions aimed at
encouraging Amtrak to operate more efficiently and to improve services on its
existing routes. Rather than relying on Amtrak to lead the development of new
intercity passenger rail service alone, PRIIA calls on the states, supported with
federal grants, to share in the development of new corridor services and high-
speed rail services. As a result, Amtrak should become one of many choices that
states have to provide rail service, rather than the only practical option.

Amtrak has many competitive advantages, including its statutory access to host
railroads, existing liability regime, and experience in planning, engineering,
maintenance, and operations. For example, Amtrak already operates several
commuter rail routes in key markets and has a nationwide reservation system
that can be extended to support new services, allowing significant economies of
scale. Amtrak can leverage these advantages to help states plan for these new
services and to become the operator of choice for new services.




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   35
Significant Activities | Testimony and Legislative Issues




                                  The Inspector General noted that as Amtrak moves into this era of passenger rail
                                  it faces four inter-related management challenges:

                                  •	 Amtrak will need to operate more efficiently in order to compete successfully
                                     for state-supported services.
                                  •	 Amtrak will need to improve its human capital management practices by
                                     focusing on strategic workforce planning and identifying its critical skills and
                                     competencies.
                                  •	 Amtrak will need to manage the risks associated with modernizing its infor-
                                     mation technology systems and infrastructure.
Amtrak will need to               •	 Amtrak will need to manage the risks associated with projects funded through
operate more efficiently             the American Recovery and Reinvestment Act (ARRA).
in order to compete
successfully for state-
supported services.
                                  Legislative Issues
                                  We received an April 8, 2010, letter from the Ranking Member of the Senate
                                  Finance Committee and the Ranking Member of the Permanent Subcommittee
      —Inspector General
                 Ted Alves        on Investigations, Senate Committee on Homeland Security and Governmental
 at Senate Appropriations         Affairs, requesting information about instances of interference with
      Committee hearing,          OIG operations, a list of reports not publicly disclosed, and the status of
           April 29, 2010         recommendations. In response, we reported on the IG’s efforts to ensure that
                                  the Amtrak OIG is positioned to operate independently, without interference
                                  from management, and—equally important—to operate effectively, with
                                  policies, procedures, and practices that support a high-performing OIG
                                  operation.

                                  •	 We reported that Amtrak management and the OIG have made significant
                                     progress in solidifying their relationship by developing a new relationship
                                     policy that fully meets the letter and the spirit of the IG Act, withdrawing the
                                     OIG from performing management functions, and rebuilding relationships
                                     among Amtrak and OIG managers and staff.
                                  •	 We provided a listing of unsubstantiated OIG investigations closed from
                                     January 1, 2009 through April 30, 2010.
                                  •	 We stated that we were not able to respond to the request for information on
                                     the scope and status of Amtrak OIG’s outstanding recommendations given the
                                     lack of reliable historical information.

                                  We are committed to developing a system to track the status of outstanding
                                  recommendations during the next semiannual reporting period.




36   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                  Significant Activities | Performance Measures




FY 2010 Performance Measures,
4/1/2010—9/30/2010

Audit Results
Congressional Testimony                                                         1
Reports Issued                                                                  2
Evaluations Issued                                                              1
Costs Questioned/Funds to be Put to Better Use                      $1,295,662
Management Decisions to Seek Recoveries                               1,055,662

Investigative Results
Financial Impact
Fines (and Special Assessments)                                          $3,300
Restitution                                                             801,938
Recoveries                                                               65,317


Judicial and Administrative Actions
Indictments                                                                     1
Convictions                                                                     4
Employee Removal                                                                1
Employee Suspensions                                                            2


Investigative Workload
Investigations Opened                                                          22
Investigations Closed                                                        133




Hotline Contacts
Email                                                                           4
Fax                                                                            11
Letter                                                                         44
Web                                                                            20
Telephone                                                                      72
Total                                                                        151


Advisory Functions
FOIA Requests Received                                                          1
FOIA Requests Processed                                                         1
Legislation Reviewed                                                            0
Regulations Reviewed                                                            0




                     Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   37
                                                                                                     Dirdon Station, San Jose, California




38   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                                                    Appendix




Appendixes

Appendix 1

Office of Inspector General
Audit Reports Issued with Questioned Costs

                                         Reporting Period: 4/1/10–9/30/10

                                                         Number           Questioned Costs         Unsupported Costs
A.	 For which no management decision has been                1                   $20,052,519                $0
    made by the commencement of the reporting
    period.
B.	 Reports issued during the reporting period.              1                    $1,055,662                $0
Subtotals (A + B)                                            2                   $21,108,181                $0


Less
C.	 For which a management decision was made                 0
    during the reporting period.
   (i)	 dollar value of recommendations that were                                                           $0
        agreed to by management.
   (ii)	dollar value of recommendations that were                                                           $0
        not agreed to by management.
D.	 For which no management decision has been                2                   $21,108,181                $0
    made by the end of the reporting period.




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   39
Appendix




      Appendix 2

      Office of Inspector General
      Audit Reports Issued with Funds to be Put to Better Use

                                                Reporting Period: 4/1/10–9/30/10

                                                                            Number                   Dollar Value
      A.	 For which no management decision has been                             1                             $240,000
          made by the commencement of the reporting
          period.
      B.	 Reports issued during the reporting period.                           0                                   $0

      Subtotals (A + B)                                                         0                             $240,000


      Less                                                                      0
      C.	 For which a management decision was made
          during the reporting period.

          (i)	 dollar value of recommendations that were                        0                                   $0
               agreed to by management.

          (ii)	dollar value of recommendations that were                        0                                   $0
               not agreed to by management.
      D.	 For which no management decision has been                             0                                   $0
          made by the end of the reporting period.




40   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                                                    Appendix




Appendix 3

Office of Inspector General
Detailed Listing of All Issued Reports

                                       Reporting Period: 4/1/10–9/30/10

Date                   Report                Report            Questioned          Unsupported        Funds to be Put
Issued                 Number                 Title              Costs                Costs           to Better Use
5/14/2010             912-2010         American                           $0                  $0                       $0
                                       Recovery and
                                       Reinvestment Act
                                       of 2009
8/17/2010              E-10-01         Amtrak                             $0                  $0                       $0
                                       Strategic Plan
9/24/2010             407-2003         BNSF On-time            $1,055,662                     $0               $240,000
                                       Performance
                                       Incentives
Total                                                          $1,055,662                     $0               $240,000




Audits
Audits in progress at 4/1/2010:                                             68
Audits postponed or canceled:                                                  6
Audits started:                                                                3
Audits in progress at 9/30/2010:                                            65




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   41
Appendix




      Appendix 4

      Office of Inspector General
      Management’s Commitment to Seek Final Action on Audits with Agreed Questioned
      Costs and Funds to be Put to Better Use (FBPTBU)

                                                Reporting Period: 4/1/10–9/30/10

                                                                  Number           Questioned        Number   Unsupported
                                                                                     Costs                       Costs
      A.	 Agreed Questioned Costs and FBPTBU for which                0                 $0             0          $0
          management action is needed at the beginning
          of the reporting period.


      B.	 Agreed Questioned Costs and FBPTBU for which                0                 $0             0          $0
          management action is needed during the report-
          ing period.


      Subtotals (A + B)                                               0                 $0             0          $0

      C.	 Management actions taken during the reporting               0                 $0             0
          period.
          (1) Collections (Cost recovery)
          (2) Cost avoidance (Contracts)
          (3) Adjusted material value (Inventory parts)
          (4) Future cost savings (Improved management
              controls)
          (5) Management reduction of costs (Negotiation)
          (6) More efficient use of funds (FBPTBU)
          (7) Management reduction of costs (Additional
              evidence
          (8) Management unwilling to pursue
          (9) Management unwilling to pursue (FBPTBU)
      Subtotals (1 – 9) of management actions                                           $0             0          $0

      D.	 Agreed Questioned Costs and FBPTBU for which                0                 $0             0          $0
          management action is needed at the end of the
          reporting period.




42   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                                                    Appendix




Appendix 5

Office of Inspector General
Summary of Reports to the President of Amtrak Concerning Information or
Assistance Unreasonably Refused or Not Provided

                                        Reporting Period: 4/1/10–9/30/10

Nothing to report this period




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   43
Appendix




      Appendix 6

      Office of Inspector General
      Review of Legislation and Regulations
                                               Reporting Period: 4/1/10–9/30/10

      Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General shall review
      existing and proposed legislation and regulations relating to programs and operations of such establishment and to
      make recommendations in the semiannual reports…concerning the impact of such legislation or regulations on the
      economy and efficiency in the administration of such programs and operations administered or financed by such
      establishment or the prevention and detection of fraud and abuse in such programs and operations.

      Furthermore, Section 4(a) states that it is “the duty and responsibility of the Inspector General “to recommend
      policies for, and to conduct, supervise, or coordinate relationships between such establishment and other Federal
      agencies, State and local governmental agencies, and nongovernmental entities with respect to (A) all matters
      relating to the promotion of economy and efficiency in the administration of, or the prevention and detection
      of fraud and abuse in, programs and operations administered or financed by such establishment, or (B) the
      identification and prosecution of participants in such fraud or abuse.”

      There was no legislation or any regulations reviewed during this reporting period.




44   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                                                                                                       Glossary




GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
The terms the OIG uses in reporting audit statistics are defined below:
Questioned Cost – Cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
alleged violation of Amtrak’s corporate policy or procedure.
Unsupported Cost – Cost that is not supported by adequate documentation at the time of the audit.
Funds to Be Put to Better Use – Funds identified in an audit that could be used more effectively by taking greater
efficiency measures.
Management Decision – Management’s evaluation of the OIG audit finding and its final decision concerning
agreement or non-agreement with the OIG recommendation.

Abbreviations/acronyms used in the text are defined below:
                                            ARRA        American Recovery and Reinvestment Act of 2009
                                            BNSF        Burlington Northern Santa Fe Railway Co.
                                              CEO       chief operating officer
                                              CFO       chief financial officer
                                            CIGIE       Council of the Inspectors General on Integrity and Efficiency
                                             CITP       Criminal Investigator Training Program
                                             COO        chief operating officer
                                              CPE       continuing professional education
                                              D.C.      District of Columbia
                                         FBPTBU         Funds to Be Put to Better Use
                                           FLETC        Federal Law Enforcement Training Center
                                              FRA       Federal Railroad Administration
                                               FY       fiscal year
                                          GAGAS         generally accepted government auditing standards
                                             GAO        Government Accountability Office
                                              GSA       General Services Administration
                                              HAF       hotel authorization form
                                                IG      Inspector General
                                              LSA       lead service attendant
                                            MCCS        Manual Credit Card System
                                            NAPA        National Academy of Public Administration
                                             NEC        Northeast Corridor
                                              OIG       Office of Inspector General
                                             OMB        Office of Management and Budget
                                              OTP       on-time performance
                                              P.L.      Public Law
                                            PRIIA       Passenger Rail Investment and Improvement Act
                                             R&R        repair and return
                                             RCM        reliability-centered maintenance
                                             RPU        Revenue Protection Unit
                                             SAM        strategic asset management
                                            U.S.C.      United States Code



                                 Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   45
Reporting Requirements




     Reporting Requirements Index

      INDEX OF REPORTING REQUIREMENTS PURSUANT TO THE INSPECTOR GENERAL ACT
      AMENDMENTS OF 1988 (P.L. 100-504)


        Topic/Section        Reporting Requirement                                                                     Page
             4(a)(2)         Review of Legislation and Regulations                                                       44

             5(a)(1)         Significant Problems, Abuses, and Deficiencies                                    23-24, 28-29

                             Recommendations for Corrective Action to Significant
             5(a)(2)                                                                                       17, 21, 24-25, 29
                             Problems
                             Previous Reports’ Recommendations for Which Corrective
             5(a)(3)                                                                                                     n/a
                             Action Has Not Been Completed

             5(a)(4)         Matters Referred to Prosecutive Authorities                                                 37

             5(a)(5)         Information Assistance Refused or Not Provided                                              43

             5(a)(6)         Audit Reports Issued in This Reporting Period                                 23-25, 37, 39, 41

             5(a)(7)         Summary of Significant Reports                                          23-25, 28-29, 31-34, 41

             5(a)(8)         Audit Reports with Questioned Costs                                                         39

                             Audit Reports with Recommendations That Funds Be Put
             5(a)(9)                                                                                                  40-41
                             To Better Use
                             Previous Audit Reports Issued with No Management
            5(a)(10)                                                                                                     n/a
                             Decision Made by End of This Reporting Period

            5(a)(11)         Significant Revised Management Decisions                                                    n/a

                             Significant Management Decisions with Which the OIG is
            5(a)(12)                                                                                                     n/a
                             in Disagreement




46   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
Stop Waste, Fraud, Abuse,
and Mismanagement!
Who pays? You pay.
Act like it’s your money…because it is.
Tell Us About It
Are you aware of waste, fraud, abuse, or mismanagement at Amtrak? Amtrak’s
Office of Inspector General (OIG) has a toll-free Hotline number that you can call,
even if you’re not certain that what you suspect falls into one of these categories.
If you’d prefer to write to us, that’s fine, too.

The OIG will keep your identity confidential. You may remain anonymous if you
so choose. You are protected by law from reprisal by your employer.



Call the Amtrak OIG Hotline
Nationwide: (800) 468-5469


Write to Us
Office of Inspector General
P.O. Box 76654
Washington, D.C. 20013-6654

Visit us online at:
www.amtrakoig.gov




              Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010   47
                                           National Railroad Passenger Corporation
                                                   Office of Inspector General
                                  10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285
                                                       www.amtrakoig.gov
48   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1 – Sept. 30, 2010
                                  Amtrak is a registered service mark of the National Railroad Passenger Corporation
